NO.

IN THE
SUPREME COURT OF THE UNITED STATES
JOHN BRUCE FIFIELD, JR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner, John Bruce Fifield, Jr., by and through court-appointed counsel,
Jacob Rasch-Chabot, Assistant Federal Public Defender for the Districts of Colorado
and Wyoming, respectfully requests that this Honorable Court grant Petitioner’s leave
to proceed in forma pauperis in petitioning for a Writ of Certiorari. In support of this
request, Petitioner states that undersigned counsel was appointed pursuant to the
Criminal Justice Act, 18 U.S.C. § 3006A, by the United States Court of Appeals for

1

the Tenth Circuit, and that Petitioner is unable to retain counsel and pay for costs
attendant to the proceedings before this Honorable Court.
WHEREFORE, the Petitioner, John Bruce Fifield, Jr., respectfully requests
that he be granted leave to proceed in forma pauperis.
Respectfully submitted,
VIRGINIA L. GRADY
Federal Public Defender

/s/ Jacob Rasch-Chabot

JACOB RASCH-CHABOT
Assistant Federal Public Defender
Counsel of Record for Petitioner
633 17th Street, Suite 1000
Denver, Colorado 80202
(303) 294-7002

2

